OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
SELECTED
USAID/LEBANON’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 6-268-11-003-P
December 6, 2010




CAIRO, EGYPT
Office of Inspector General


December 6, 2010

MEMORANDUM

TO:      	         USAID/Lebanon Mission Director, Dr. Jim Barnhart

FROM: 	            Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	          Follow-up Audit of Selected USAID/Lebanon’s Democracy              and
                   Governance Activities (Audit Report No. 6-268-11-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we carefully considered your comments on the draft report and have included your
responses in their entirety in appendix II (attachments excluded).

The report includes 10 recommendations for corrective action. On the basis of
USAID/Lebanon’s supporting documentation and planned action, we consider that final
action has been taken on eight recommendations, a management decision has been
made on one recommendation, and no management decision has been reached on the
remaining recommendation. RIG/Cairo considers that final action has been taken
recommendations 1, 2, 3, 4, 5, 6, 7, and 9. In addition, we consider that a management
decision has been reached on recommendation 10 and that a management decision has
not been reached on recommendation 8.

Please provide the Audit Performance and Compliance Division in the USAID Office of
the Chief Financial Officer (M/CFO/APC) with the necessary documentation to achieve
final action for recommendations 8 and 10. A management decision will be recorded for
recommendation 8 after USAID/Lebanon has developed a plan of action with a target
date for implementing the recommendation.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Ahmed Kamel St. off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 4 


     USAID/Lebanon Has Taken Actions to 

     Improve Program Indicators ........................................................................................ 4 


     USAID/Lebanon Should Ensure That 

     Reports on Program Results Are Accurate ................................................................. 5 


     USAID/Lebanon Should Verify Data ........................................................................... 6 


     USAID/Lebanon Should Strengthen 

     File Documentation ..................................................................................................... 7 


     USAID/Lebanon Should Ensure That 

     Intellectual Property Rights Clauses Are 

     Included in Agreements .............................................................................................. 8 


     USAID/Lebanon Should Systematically Review 

     Program Activities for Sustainability ............................................................................ 9 


     USAID/Lebanon Should Ensure That 

     Federally Funded Properties Are Valued .................................................................. 11 


     USAID/Lebanon Should Conduct Property 

     End-Use Checks ....................................................................................................... 13 


Evaluation of Management Comments ....................................................................... 14 

Appendix I – Scope and Methodology ........................................................................ 17 

Appendix II – Management Comments ....................................................................... 19 

Appendix III – Summary of Agreement Modifications ............................................... 25 

Appendix VI – Software Systems Developed Under the 

Assistance to Sustain Local Democratic Practices in Lebanon Program............... 26 

Appendix V – Government of Lebanon Divisions 

Where Software Systems Were Installed.................................................................... 27 

SUMMARY OF RESULTS

As part of USAID/Lebanon’s strategic vision for democracy and good governance, the
mission identified a need to improve municipal governance, expand the role of civil
society advocacy, and increase the responsiveness of Parliament. These actions are
three critical prerequisites to strengthening foundations of governance in Lebanon.
Unless the capacities of local government are ensured, many other development
projects will fail to achieve their intended results. To help achieve these strategic
visions, USAID/Lebanon awarded a 3-year, $17.7 million cooperative agreement entitled
Strengthening Foundations for Governance (No. 268-A-00-04-00232-00) to the State
University of New York (SUNY). This agreement provided assistance to sustain local
democratic practices in Lebanon beginning November 30, 2004, and ending November
29, 2007. USAID/Lebanon modified the cooperative agreement, extending it to
November 30, 2011, and increasing funding to $28.7 million.

As of July 2010, USAID/Lebanon’s portfolio of programs consisted of education,
economic growth, democracy and governance, and reconstruction and wastewater
projects valued at $202 million. The mission’s democracy and governance portfolio is
about 28 percent of the total programs, valued at $56 million. SUNY implemented the
Assistance to Sustain Local Democratic Practices in Lebanon Program, valued at $28.7
million, or 51 percent of the democracy and governance portfolio. As of June 30, 2010,
USAID had obligated $26.5 million and expended $23.9 million for the SUNY program.
Shortly before the audit began, USAID/Lebanon discontinued the program because
officials did not believe that the program was in the best interest of the U.S. Government.
USAID/Lebanon officials stated that the inability of the mission and SUNY to extend a
memorandum of understanding between SUNY and Government of Lebanon’s Ministry
of Interior and Municipalities contributed to the decision to modify the agreement.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this followup audit to the
Audit of USAID/Lebanon Democracy and Governance Activities conducted during fiscal
year (FY) 2008. The FY 2008 audit was a worldwide audit that included a democracy
and governance program implemented by SUNY and America–Mideast Educational and
Training Services (AMIDEAST). Since the SUNY program accounted for 51 percent of
USAID/Lebanon’s total democracy and governance portfolio, the follow-up audit focused
on SUNY activities and conducted limited procedures on the AMIDEAST program. The
audit was designed to answer the following questions:

	 Did USAID/Lebanon implement the recommendations from Audit Report No. 6-268-
   09-002-P, dated November 9, 2008, and were the actions taken effective?

In a 2008 RIG/Cairo audit report (Audit No. 6-268-09-002-P, dated November 9, 2008),
auditors recommended that USAID/Lebanon:

    	 Update its performance management plan to clarify definitions for its democracy
       and governance indicators to be objective in accordance with Automated
       Directives System (ADS) 203.3.4.2(b).1


1
  The previous audit recommendation referred to ADS 203.3.4.2(b), which defined the term
“objective.” The current ADS version defines the term “objective” in Chapter 203.3.4.2(a), Objective.

                                                                                                   1
   	 Institute procedures to perform data quality assessments as required by ADS
      203.3.5.2.
   	 Develop a schedule to periodically sample and review its implementing partners’
      data for completeness, accuracy, and consistency.

USAID/Lebanon took some corrective actions to improve its management oversight over
the clarification of its program indicator definition, data quality assessments, and data
verification. However, for two recommendations, the mission took actions that have not
been effective. For recommendation 1, USAID/Lebanon dropped the ambiguous
program indicators from its performance management plan (PMP) and updated it with
clearly defined indicators that focused on program sustainability (page 4). To address
recommendation 2, USAID/Lebanon hired a consulting firm to conduct a data quality
assessment. The assessment reported that the implementer overreported on one
indicator and that the mission should clarify and document the definition of its program
indicators, standardize reporting procedures, and implement consistent indicators for its
implementing partners. However, the mission did not discuss the recommendations with
SUNY until April 2010. Accordingly, SUNY did not make appropriate and timely changes
to indicators reported in the FY 2009 PMP (page 5). For recommendation 3, the mission
director instructed mission staff to conduct quarterly site visits to verify reported data.
Mission staff documented site visits and retained documentation of information collected
but did not document the results of data verification of program activities (page 6).

Moreover, the followup audit identified additional management oversight issues that
USAID/Lebanon should address: strengthening the mission’s file documentation (page
7), ensuring that intellectual property rights clauses are included in its agreement (page
8), systematically reviewing program activities for sustainability (page 9), ensuring that
federally funded properties are valued (page 11), and conducting end-use checks for
property purchased using USAID funds (page 13).

USAID/Lebanon can strengthen its management controls and oversight by:

   	 Developing a plan to document mission communication to its implementers about
      actions needed to address audit, assessment, and review recommendations
      (page 7).
   	 Developing procedures with the agreement officer’s technical representative at
      the beginning of each program activity to establish methodologies and sampling
      techniques to conduct appropriate data verification of information provided by the
      implementing partners in accordance with the terms and conditions of the
      program activity (page 7).
   	 Creating a centralized program filing system that includes the first or original
      agreement, subsequent agreements and modifications, and other identified
      agreement documents necessary for management review (page 8).
   	 Developing a plan to ensure that agreements are modified to include relevant
      provisions, such as the intellectual property rights clause, as appropriate over the
      life of the award (page 9).
   	 Developing a plan to document the review of program activities and
      communicate potential sustainability or vulnerability problems to the agreement
      officers expeditiously (page 11).
   	 Documenting procedures to develop, maintain, and communicate explicit system
      requirements, protocols, and procedures to maintain information technology in an
      appropriate activity approval document and in the subsequent solicitations and


                                                                                         2
      awards (page 11).
   	 Coordinating with the agreement officer to develop a plan to ensure that
      programs with information technology components are capitalized during the
      development phase of the asset (page 12).
   	 Conducting an audit of locally incurred costs for software programs developed
      under the Assistance to Sustain Local Democratic Practices in Lebanon program
      to determine finite values for the programs (page 12).
   	 Developing a schedule for the implementer to submit a complete list of USAID-
      funded equipment with a program description and assigned values to the mission
      (page 13).
   	 Developing a procedure as part of its routine site visits to perform end-use
      checks and retain documentation of the equipment reviewed (page 13).

The audit’s scope and methodology are described in appendix I.

USAID/Lebanon generally agreed with the 10 audit recommendations. In preparing the
final report, RIG/Cairo carefully considered management comments and supporting
documents provided. On the basis of USAID/Lebanon’s supporting documentation and
planned action, RIG/Cairo considers that final action has been taken on eight
recommendations, a management decision has been made on one recommendation,
and no management decision has been reached on the remaining recommendation.
RIG/Cairo considers that final action has been taken on recommendations 1, 2, 3, 4, 5,
6, 7, and 9. In addition, a management decision has been reached on recommendation
10 but a management decision has not been reached on recommendation 8 because
mission officials believe valuing assets developed by the implementer would not be
beneficial for the Government of Lebanon.

Management’s comments are included in their entirety in appendix II (attachments
excluded).




                                                                                    3
AUDIT FINDINGS 

Did USAID/Lebanon implement the recommendations from Audit
Report No. 6-268-09-002-P dated November 9, 2008, and were the
actions taken effective?
In a 2008 Regional Inspector General/Cairo (RIG/Cairo) audit report (Audit No. 6-268-
09-002-P, dated November 9, 2008), auditors recommended that USAID/Lebanon:

   	 Update its performance management plan to clarify definitions for its democracy
      and governance indicators to be objective in accordance with Automated
      Directives System (ADS) 203.3.4.2(b).
   	 Institute procedures to perform data quality assessments as required by ADS
      203.3.5.2.
   	 Develop a schedule to periodically sample and review its implementing partners’
      data for completeness, accuracy, and consistency.

In response to the 2008 RIG/Cairo report recommendations, USAID/Lebanon took
corrective actions to improve its management oversight over the clarification of its
program indicator definitions, data quality assessments, and data verification designed
to measure results of some of its activities within its Assistance to Sustain Local
Democratic Practices in Lebanon program implemented by the State University of New
York (SUNY). Although the mission has taken corrective action to revise some of its
democracy and governance indicators, USAID/Lebanon will need to ensure that the data
verification of these indicators is conducted on a timely and consistent basis.
Specifically, the mission hired the consulting firm Management Systems International
(MSI) to develop the mission’s performance management plan (PMP) with clearly
defined indicators. The mission also hired MSI to conduct a data quality assessment of
its performance plan and report (PPR) for three indicators for the Assistance to Sustain
Local Democratic Practices in Lebanon program that SUNY had implemented since
2004.

USAID/Lebanon Has Taken Actions to Improve Program Indicators — ADS
203.3.4.2, Characteristics of Good Performance Indicators, defines the characteristics of
good performance indicators as objective, practical, useful for management, direct,
attributable to USAID/U.S. Government efforts, timely, and adequate.

Although RIG/Cairo recommended that USAID/Lebanon update its PMP to clarify
definitions for its democracy and governance indicators in its fiscal year (FY) 2008 PMP
report on results, the mission revised its PMP and dropped all of the SUNY performance
indicators for the municipality program. In addition, in November 2008 the mission
shifted the program focus to sustainability.

For FY 2009, the mission reported on two new indicators for the municipality program:
Number of sub-national government entities demonstrating improved financial
management practices and Number of technical requests from municipalities resolved
by the Ministry of Interior and Municipalities. In the revised PMP that USAID/Lebanon
approved in February 2010, the mission clarified the definitions of the two new indicators
to eliminate some of the ambiguity that existed with the FY 2006 and 2007 indicators.

                                                                                        4
Although USAID/Lebanon clarified the indicators for the SUNY democracy and
governance program in FY 2009, the implementer achieved only 41 percent of its target,
or 62 of 150 of technical requests for the indicator Number of technical requests from
municipalities resolved by the Ministry of Interior and Municipalities. USAID/Lebanon
and SUNY designed the indicator to measure the sustainability of the program—
specifically, to measure the ability of the Ministry of Interior and Municipalities (MOIM) to
respond to issues and enable local governments to function more effectively.

On the basis of a new PMP developed as a collaborative effort among USAID/Lebanon,
its consultant MSI, and SUNY, the mission revised and updated specific democracy and
governance program indicators. Moreover, the group discussed data sources and
collection methods for the new or revised program indicators. According to mission staff,
the new PMP is simpler.

USAID/Lebanon Should Ensure That Reports on Program Results Are Accurate —
USAID provides guidance in several ADS chapters for management control activities
over documentation and data verification. ADS 596, Management’s Responsibility for
Internal Control, states that USAID managers and staff must develop and implement
appropriate, cost-effective internal controls over management that produce results.
Control activities must be effective and efficient in accomplishing the Agency’s control
objectives and must include appropriate documentation of transactions and internal
control. ADS 203.3.5.3, Conducting Data Quality Assessments, states that findings from
the data quality assessment should be documented in a memo to the file. ADS
203.3.5.2, Purpose of Data Quality Assessments, requires that data reported to
Washington in accordance with the Government Performance and Results Act should
have had a data quality assessment at some time within the 3 years before submission.

In a January 2009 data quality assessment report to USAID/Lebanon, MSI reported that
SUNY had overreported on one indicator, Number of individuals who received U.S.
Government-assisted training including management skills and fiscal management to
strengthen local government and/or decentralization, by 30 percent. According to MSI,
SUNY reported training 1,168 municipality staff rather than 816 staff for FY 2008. In
addition, MSI reported on the two remaining indicators: Number of sub-national
governments receiving U.S. Government assistance to increase their annual own-source
revenue and Number of local mechanisms supported with U.S. Government assistance
for citizens to engage their sub-national government. However, USAID/Lebanon
dropped these two indicators from the mission’s 2009 PPR. MSI also recommended
that USAID/Lebanon clarify and document the definition of its program indicators,
standardize reporting procedures, and implement consistent indicators for its
implementing partners.

Although mission officials accepted the data quality assessment results in March 2009,
they did not communicate the results of the assessment to SUNY before the reporting
period ended in September 2009. In fact, the mission did not communicate the
assessment results until about a year later, in April 2010. As a result, SUNY did not
make appropriate changes in how the program quantified and reported on its indicator
Number of individuals who received U.S. Government-assisted training including
management skills and fiscal management to strengthen local government and/or
decentralization in data that the mission reported in its FY 2009 PPR in December 2009.
Thus, USAID/Lebanon reported inaccurate data because of overreporting that included
trainees who attended multiple training sessions. SUNY overreported the number of

                                                                                           5
trainees who received training in management skills and fiscal management by 44
percent, reporting that 1,088 municipality staff were trained when only 758 staff had
been trained in multiple sessions

The mission placed less management oversight on ensuring that reports on program
results were accurate. From FY 2008 to FY 2010, the agreement officer’s technical
representative (AOTR) changed four different times. The current AOTR stated that the
primary focus was on the sustainability issues for the program. In April 2010, the
mission’s democracy and governance team requested that the alternate AOTR meet
with the implementer to discuss the data quality assessment, and ultimately SUNY
agreed to adjust the training figures on the basis of corrections identified in the data
quality assessment.

USAID/Lebanon Should Verify Data — SUNY has not maintained accurate supporting
documentation for data that USAID/Lebanon has reported since 2008. Although the
implementer reported training 1,168 Lebanese municipality staff from December 2007
through November 2008 and 1,088 municipality staff in the FY 2009 Performance Plan
and Report for the indicator Number of individuals who received U.S. Government-
assisted training, including management skills and fiscal management, to strengthen
local government and/or decentralization, the implementer stated that its staff
documented training using sign-in sheets for workshops and classroom activities only.
According to one mission staff person, the implementer stated that its staff also
conducted numerous ad hoc one-on-one mini training sessions with municipality staff on
technical support issues that sometimes lasted 10 minutes at most. Although SUNY
staff maintained brief descriptions of the one-on-one trainings in their database, the
implementer did not require its staff or the trainees to sign in or certify the dates and
times when these sessions occurred. Although the mission reported this training
information in its FY 2009 PPR, USAID/Lebanon did not resolve the discrepancy
regarding the number of trainees with the implementer until April 2010, after the
reporting period.

In response to recommendations from the 2008 RIG/Cairo audit report to develop a
schedule to periodically sample and review implementers’ data for completeness,
accuracy, and consistency, in October 2008 the USAID/Lebanon mission director issued
a memo to staff regarding the need to verify data during quarterly site visits before the
audit was published in November 2008. Consequently, mission staff documented 10
site visits and collected a few documents as support for data verification for SUNY
during FY 2009. However, the AOTRs did not adequately document results of the data
verification in the reports, document dates of verification, document a sampling
methodology, or document the results of the data verification to identify anomalies.
Although the AOTRs documented site visits of the implementer’s activities, the current
AOTR for SUNY activities stated that the agency training did not provide sufficient
guidance on sampling methodologies for data verification.

Accurate mission data are critical to ensure that USAID missions document and publish
data that will be useful to stakeholders and decisionmakers. Timely communication
about necessary changes in data collection and verification is of paramount importance
to ensure that reported data are complete and accurate. Management controls include
actions such as a data quality assessment and documentation review to ensure, in part,
that a mission is aware of the integrity of the data reported by its implementers.
Because performance influences management decisions, data verification must be
accurate and timely and documentation must be complete. Sampling methodologies

                                                                                       6
used for data verification are not necessarily complex. Some sampling methodologies
can be as simple as identifying equipment and goods purchased with USAID funds of a
high dollar value and comparing the inventory with receipt records to verify cost,
existence, and use. Consequently, this audit makes the following recommendations:

   Recommendation 1. We recommend that USAID/Lebanon develop and
   implement a plan to communicate results of recommendations from audits,
   assessments, and reviews to its implementers in a timely manner.

   Recommendation 2. We recommend that USAID/Lebanon develop and
   implement procedures with the agreement officer’s technical representative at
   the beginning of each program activity to establish methodologies and sampling
   techniques to conduct appropriate data verification of information provided by the
   implementing partners in accordance with the terms and conditions of the
   program activity.

USAID/Lebanon Should Strengthen
File Documentation
The Agreement Officer Technical Representative (AOTR) Designation Cooperative
Agreement Administration letter states that AOTRs’ files are the primary tools for
conducting and accomplishing AOTRs’ duties and responsibilities and for documenting
staff actions. Moreover, the letter lists the documents that should be included in the
AOTR files, including correspondence between the AOTR and the implementer, copies
of financial documents, and actions taken by the AOTR. In addition, Procurement
Executive Bulletin (PEB 2005-06) File Standardization Pilot includes a checklist of
various documents that USAID/Washington contracting officers should include in
assistance files. The checklist also includes references to specific laws, regulations, and
guidance applicable to each document type.             Although the bulletin refers to
USAID/Washington contracting officers, the checklist is an example of a good business
practice for managing and maintaining implementer files for program review.

From FY 2008 to FY 2010, USAID/Lebanon assigned four different AOTRs oversight
responsibilities for the cooperative agreement, but agreement files were not transferred
to each responsible staff person adequately or staff did not have access to each other’s
SUNY program files. Although some of the AOTRs placed agreement files on the
mission’s electronic shared drive, different sets of personal AOTR agreement files
existed for each staff person who had been an AOTR for the agreement. In addition,
AOTR staff maintained hard copy files that were missing required financial information,
such as the basis for historical accruals estimates. Moreover, the AOTRs kept some
files in separate locations, rather than transferring the files to a successor AOTR in a
timely manner. According to the current AOTR, when trying to review earlier SUNY
agreement files at the request for the follow-up audit, an AOTR was not able to access
one of the prior AOTR’s files because of the mission’s secured electronic access
restrictions. Later, during May 2010, the AOTR stated that the mission granted access
to personal staff files that staff said were related to the SUNY program.

In a second case concerning the mission’s agreement files for democracy and
governance implementer AMIDEAST, the incumbent AOTR kept both paper and
electronic files. Although the AOTR kept numerous files, they did not include most of the
files from the prior AOTR, which included all correspondence from the start of the

                                                                                         7
program in March 2001 until the time the current AOTR assumed duties for the
agreement in May 2009. Similar to SUNY’s program, the AOTR from March 2001 kept
hard copy files in a personal office rather than transferring the files to the current AOTR
or to a centrally accessible safeguarded file location. Furthermore, the AOTR files were
not accessible in one physical location or in one location on the electronically shared
drive. Consequently, USAID/Lebanon did not maintain complete AOTR files that were
readily available to file users or for management review.

The mission staff noted that the primary reason for the incomplete files and inadequate
file maintenance was the lack of space in their physical offices. Staff stated that when
an identified file was needed, they could easily acquire it from an office or colleague.

Inadequate files impede USAID/Lebanon’s ability to manage its agreements in an
efficient, effective, and timely manner. USAID agreement files include historical program
information that documents significant and critical decision points for a USAID program.
Since USAID/Lebanon first implemented the SUNY program in 1993, historical files are
an invaluable management tool for the review of program activities, management
decisions, and financial data. As a prudent management control and good business
practice, placing all of the agreement files in one location will facilitate management and
staff review regardless of staffing reassignments. Consequently, this audit makes the
following recommendation:

   Recommendation 3. We recommend that USAID/Lebanon create a centralized
   program filing system that includes the first or original agreement, subsequent
   agreements and modifications, and other identified agreement documents
   necessary for management review.

USAID/Lebanon Should Ensure That
Intellectual Property Rights Clauses
Are Included in Agreements

According to ADS 318.2, Intellectual Property Rights, Primary Responsibilities, the Office
of General Counsel (General Counsel) is the primary USAID office responsible for
reviewing and providing guidance on intellectual property rights reports. Moreover, both
contracting officers and agreement officers are responsible for ensuring that
(1) appropriate intellectual property rights provisions and clauses are included in
solicitation documents and funding agreements; (2) appropriate intellectual property
rights provisions and clauses are included in grants and cooperative agreements with
U.S. nongovernmental organizations; and (3) claims by offerors, applicants, or current
implementers of exclusive or proprietary rights to intellectual property that has specific
and frequent application in USAID activities are closely examined. As an additional
management oversight, contracting officer’s technical representatives (COTRs) and
AOTRs ensure that the provisions and other applicable regulations are met. For
intellectual property materials used overseas, the COTR and AOTR must coordinate
with the Regional Legal Advisor to ensure that the beneficiary rights in intellectual
property developed for a project are properly documented under local laws.

As part of USAID/Lebanon’s effort to strengthen and improve municipal capacities,
SUNY designed and developed 22 software programs to automate several
administrative and financial functionalities at 1,684 offices within the Government of
Lebanon.       SUNY designed and developed 12 software programs under
                                                                                         8
USAID/Lebanon’s 2004 Cooperative Agreement (No. 268-A-00-04-00232-00). However,
USAID/Lebanon funded the remaining 10 software programs under different cooperative
agreements prior to 2004. SUNY installed these software programs across several
government offices throughout Lebanon. (Appendix IV includes a table with the software
programs and estimated development dates. Appendix V contains a table with the
divisions where the software programs were installed.)

SUNY developed software programs designed to provide continuing value to the
Government of Lebanon’s MOIM daily fiscal operations. However, in the implementer’s
2004 Cooperative Agreement, USAID/Lebanon did not include relevant provisions and
clauses to define the rights to the software programs for the mission, the implementer, or
the Government of Lebanon. Mission officials stated that the clause was inadvertently
left out of the agreement. Furthermore, USAID/Lebanon did not modify the cooperative
agreement to define these software program rights in 11 modifications made from FYs
2005 to 2010. (Appendix III contains a table of the modifications and purposes.)

Performing oversight responsibilities is an invaluable service to a mission. An efficient
and effective agreement officer and AOTR should routinely communicate to each other
the program successes and potential problems and vulnerabilities. Moreover, the
agreement officer should ensure that the provisions and other applicable regulations are
included in the agreement. An AOTR, who is responsible for program activities, is a
mission’s direct link to implementers and should alert mission management and the
agreement officer about any potential problems and vulnerabilities. Because the SUNY
program activities included highly concentrated information technology components
during a 6-year period, at a minimum, an agreement officer and AOTR could have
reviewed USAID’s and its beneficiary’s rights to this high-priced commodity. Since
USAID/Lebanon did not include intellectual property rights provisions and clauses in its
cooperative agreement with SUNY, the Agency and the mission did not leverage
resources in a timely manner to provide sustained value to their beneficiaries.
Consequently, this audit makes the following recommendation:

   Recommendation 4.           We recommend that USAID/Lebanon’s agreement
   officer’s technical representatives, in conjunction with the agreement officer,
   develop and implement a written plan to ensure that agreements are modified to
   include relevant provisions, such as the intellectual property rights clause, as
   appropriate over the life of the award.

USAID/Lebanon Should
Systematically Review Program
Activities for Sustainability

Two automated directives define how USAID programs should be designed and the role
of an AOTR in monitoring a program for sustainability. ADS 201.3.4, Planning, USAID
Mission/Office Long-Term Planning, requires USAID to work closely with partners,
customers, and stakeholders to (1) design and implement projects and activities that will
ensure that results are achieved; (2) include resources required to execute the plan over
its proposed time period; (3) include indication of the specific results expected and how
performance will be measured and managed; and (4) produce sustainable benefits after
termination of USAID funding. In addition, ADS 303, Grants and Cooperative
Agreements to Non-Governmental Organizations, Designation of the Agreement
Officer’s Technical Representative, states that the agreement officer and AOTR share

                                                                                        9
oversight of an assistance award. The agreement officer, who is assigned at
USAID/Egypt’s Procurement Office, designates the AOTR to monitor the implementer’s
progress toward achieving program objectives and to verify that an implementer’s
activities conform to the terms and conditions of the award. Moreover, site visits
conducted by the AOTR are to be documented with findings highlighted and retained in
the award files. The AOTR is also responsible for communicating potential problems to
the agreement officer.

Furthermore, USAID/Lebanon’s Cooperative Agreement No. 268-A-00-04-00232-00,
Strengthening Foundations for Governance, dated September 16, 2004, section 4.3,
Project Sustainability, required selected MOIM and oversight agency employees to be
trained in the maintenance and operation of the systems in order to allow complete
transfer of the systems to the Government of Lebanon by the end of the project in 2007.2
The 2004 memorandum of understanding (MOU) among USAID/Lebanon, SUNY, and
the MOIM also stated that SUNY was to ensure simultaneous software configuration and
personnel training during the installation of hardware and software programs. In the
2009 MOU, SUNY agreed to update existing software applications and train MOIM
employees to use the software. Under both the 2004 and 2009 MOUs, the MOIM was to
provide the appropriate human resources to maintain and operate the installed
equipment, software, and special applications on a continuous basis.

Although USAID/Lebanon designed its Assistance to Sustain Local Democratic
Practices in Lebanon program to be sustainable, the Government of Lebanon is not able
to continuously maintain and upgrade the 22 software programs developed under the
program to improve administrative and financial functions.               According to
USAID/Lebanon, the MOIM did not hire the technical staff as agreed to in either the
2004 and 2009 MOUs for SUNY to conduct the training needed for the Government of
Lebanon’s technical staff to continuously maintain and upgrade the software programs.
Moreover, the 2009 MOU among SUNY, USAID, and the MOIM was signed for 2 years,
to end in 2010 instead of 2011. The current AOTR and SUNY’s chief of party stated that
this was an error; however, the minister of the MOIM would not extend the MOU to 2011
or hire the appropriate human resources.

Although the 2004 MOU required SUNY to conduct system maintenance training
simultaneously with the installation of hardware and software programs, the 2004–2008
work plans did not include system maintenance training as an activity to be completed
under the 2004 agreement. The only system maintenance training identified in the
2004–2008 work plans was for maintenance of the MOIM Web site. System
maintenance training was later listed as an activity in the 2009–2011 work plans to be
completed as part of a 2008 extension of the agreement. According to SUNY’s chief of
party, the implementer did not provide any training that would allow the Government of
Lebanon to maintain and upgrade the software programs. Neither of the implementer’s
2008 and 2009 Annual Reports on the Program Performance to USAID highlighted the
lack of system maintenance training as a problem or vulnerability that had the potential
to negatively impact program sustainability.

Moreover, USAID/Lebanon’s site visit reports did not document any comparative
analysis of program activities and activities outlined in the work plan to demonstrate that
the program was monitored on a continuous basis. The prior AOTR provided a

2
 The mission extended this agreement several times until 2011. Assistance to the Government
of Lebanon began in 1993.

                                                                                        10
summary analysis of the third year’s program activities from December 2006 to
November 2007 against the work plan that identified political turmoil as a hindrance to
the completion of program activities. However, USAID/Lebanon did not document or
communicate any problems with program sustainability to the agreement officer.
Instead, in June 2008, the prior AOTR submitted a request to the agreement officer for
the program to be extended for 3 years, stating that USAID/Lebanon did not achieve the
program targets because of political turmoil. Later, in April 2010, the current AOTR
communicated to the agreement officer that the program was not sustainable, and in
July 2010 mission officials decided to terminate the program.

To achieve desired results, mission officials must ensure that sustainability is an integral
component when monitoring program activities for results. Furthermore, monitoring of
program activities for sustainability should be documented and potential problems
communicated to the agreement officer immediately. For USAID programs with
information technology components, communication on system requirements, protocol,
and procedures to maintain the information technology infrastructure can be
documented in the program’s activity approval document. Since the sustainability of
USAID/Lebanon’s efforts to improve information technology systems to maintain
governmental administrative and financial data is questionable, the audit makes the
following recommendations:

    Recommendation 5. We recommend that USAID/Lebanon develop and
    implement a plan to document the review of program activities and communicate
    potential sustainability or vulnerability problems to the agreement officer
    expeditiously.

    Recommendation 6.          We recommend that USAID/Lebanon document
    procedures to develop, maintain, and communicate explicit system requirements,
    protocols, and procedures to maintain information technology in an appropriate
    activity approval document and in the subsequent solicitations and awards.

USAID/Lebanon Should
Ensure That Federally Funded
Properties Are Valued

According to the American Institute of Certified Public Accountants’ Statement of
Position (SOP) Number 98-1, Accounting for Costs of Computer Software Developed or
Obtained for Internal Use, costs incurred for software programs developed internally for
internal use may be capitalized if the software will provide future economic benefit to an
entity. SOP Number 98-1 specifies that capitalized costs include external direct costs of
materials and services consumed in developing or obtaining internal-use computer
software; payroll and payroll-related costs for employees who are directly associated
with and who devote time to the internal-use computer software project (to the extent of
the time spent directly on the project); and interest costs incurred when developing
computer software for internal use.

In addition, according to the Code of Federal Regulations, Title: 22 Foreign Relations,
Part 226.34 Equipment,3 the recipient’s property management standards for equipment
3
  According to Code of Federal Regulations, “equipment” means tangible nonexpendable
personal property, including exempt property charged directly to the award, having a useful life of

                                                                                                11
acquired with federal funds shall include standards to ensure that equipment records are
maintained accurately and include a description of the equipment, an identification
number, and unit acquisition cost. This regulation refers to tangible nonexpendable
property, but it is a best practice for missions with software development projects.

SUNY developed 22 software programs4 to modernize the Government of Lebanon’s
administrative and financial systems. For example, according to the implementer, the
Municipal Accounting System was developed to improve financial transparency and
enables large municipalities to manage accounting and financial transactions and
generate financial reports for government auditor oversight. In addition, the Municipal
Revenue System organizes the assessment and collection of fees due to the
Government of Lebanon under various laws, and it is installed in more than 700
municipalities.

The implementer’s records of the software programs funded by USAID/Lebanon since
before 2004 include the software name and the estimated development start and
completion dates. Although SUNY tracked the software programs, the implementer did
not place a value on any of the software programs. The SUNY chief of party stated that
the implementer did not track the direct costs associated with developing software and
was not able to provide a finite value for the software. However, 2 weeks later, the
SUNY research administrator provided an estimated value of $2.9 million for 12 software
programs. The research administrator stated that the value of the software programs
was determined by calculating expenses for the work of 21 consultants hired for
software development. Although the implementer valued the software development and
programs, SUNY was not able to provide the details or computations for an estimated
value. Consequently, the mission may never know the true value of this software, and
future audits may not review the level of details to determine a finite value.

The software programs may provide future economic value to the Government of
Lebanon’s administrative and financial system. Since the implementer plans to transfer
all assets to the Government of Lebanon at the end of the program, a finite value will
allow the Government of Lebanon to record the software programs as assets within its
accounting records. As a prudent management practice, properties acquired with
federal funds should be tracked and valued in accordance with regulations.
Consequently, this audit makes the following recommendations:

   Recommendation 7. We recommend that USAID/Lebanon, in coordination with
   the agreement officer, develop and implement a plan that requires capitalization
   of programs with information technology components during the asset’s
   development phase.

   Recommendation 8. We recommend that USAID/Lebanon conduct an audit of
   locally incurred cost for software programs developed under the Assistance to
   Sustain Local Democratic Practices in Lebanon program to determine finite
   values for the programs.




more than one year and an acquisition cost of $5,000 or more per unit. 

4
  Twelve of the 22 software programs were developed under USAID/Lebanon’s Cooperative 

Agreement No. 268-A-00-04-00232-00, Strengthening Foundations for Governance (September 

16, 2004). The remaining 10 systems were developed under prior USAID agreements. 


                                                                                      12
USAID/Lebanon Should Conduct
Property End-Use Checks
According to the Code of Federal Regulations, Title 22: Foreign Relations, Part 226.34
Equipment, the recipient’s property management standards for equipment acquired with
federal funds shall include standards to ensure that equipment records are maintained
accurately and include a description of the equipment, an identification number, and unit
acquisition cost. Although this regulation refers to tangible nonexpendable property, the
applicability of the requirement to maintain records of software development is a best
practice for missions that expend millions of dollars on such programs. Furthermore,
ADS 324, Post Procurement, states that the mission is responsible for selecting a
representative sampling or percentage of commodities at all value levels under the
program and reviewing progress reports to verify that commodities financed by USAID
are being used effectively.

The program’s current AOTR provided a list of USAID-financed equipment for the
program. However, the list did not document any equipment values, and the program’s
site visit reports did not include documentation of end-use checks during the agreement
period. The current AOTR stated that the mission planned to conduct end-use checks
as part of a Municipal Geographic Information System launching ceremony. However,
several dignitaries were present at the ceremony, which the AOTR stated hindered the
ability to perform an end-use check. Consequently, according to the current AOTR, the
mission was not able to verify any equipment financed by the program or complete an
end-use check.

USAID invested more than $23 million in this democracy and governance program, and
procuring computer hardware and software applications was an integral component of
the program. Although implementers are required to have standards and procedures in
place to account for properties funded by the U.S. Government, it is fundamental that
management monitor programs to account for these properties and prevent their loss
and misuse. Consequently, this audit makes the following recommendations:

   Recommendation 9. We recommend that USAID/Lebanon develop a schedule
   for the implementer to submit to the mission a complete list of USAID-funded
   equipment with a program description and assigned values.

   Recommendation 10. We recommend that USAID/Lebanon develop and
   implement a procedure to perform end-use checks as part of its routine site visits
   and retain documentation of the equipment reviewed.




                                                                                        13
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Lebanon generally agreed with the 10 audit recommendations. In preparing the
final report, the Regional Inspector General/Cairo (RIG/Cairo) carefully considered
management comments and supporting documents provided.                On the basis of
USAID/Lebanon’s supporting documentation and planned action, we consider that final
action has been taken on eight recommendations, a management decision has been
made on one recommendation, and no management decision has been reached on the
remaining recommendation. RIG/Cairo considers that final action has been taken on
recommendations 1, 2, 3, 4, 5, 6, 7, and 9. In addition, we consider that a management
decision has been reached on recommendation 10 and that a management decision has
not been reached on recommendation 8 because mission officials believe valuing assets
developed by the implementer would not be beneficial for the Government of Lebanon.

To address recommendation 1, USAID/Lebanon issued Mission Order 11/09,
Communicating and Implementing Results of Assessments, Audits, and Reviews with
Implementing Partners and Host Government Entities, effective November 22, 2010.
The mission order requires contracting and agreement officer’s technical representatives
(COTRs and AOTRs) to communicate results of any audits, assessments, and reviews
to the relevant implementing partner within a maximum of 2 months. Moreover, the
AOTRs and COTRs must obtain prior clearance from the office director, program officer,
and mission director. On the basis of the mission’s response and relevant supporting
documents, RIG/Cairo considers that final action has been taken to address the
recommendation.

To address recommendation 2, USAID/Lebanon issued Mission Order 11/08 Oversight
and Data Verification, effective November 22, 2010. The mission order provides
guidance on methods and sampling techniques for COTRs and AOTRs in fulfilling duties
in the oversight and administration of program-funded contracts, grants, and cooperative
agreements. To support its efforts to monitor the program portfolio, USAID/Lebanon
hired a monitoring and evaluation contractor to assist staff in developing methodologies
to observe performance, assessing progress of programs, and verifying data collected
and reported. Consequently, RIG/Cairo considers that final action has been taken to
address this recommendation.

Regarding recommendation 3, USAID/Lebanon issued guidance to establish procedures
for records retention. Moreover, the mission director developed a checklist for
transferring files among assigned staff. Furthermore, the mission reconfigured its
electronic filling system to create separate project folders with appropriate access rights
for its staff. As a result of these actions, RIG/Cairo considers that final action has been
taken to address recommendation 3.

Regarding recommendation 4, on November 12, 2010, USAID/Lebanon revised its
Portfolio Review Activity Sheet (or the portfolio implementation review template) to be
effective during fiscal year (FY) 2011.        The mission added a section entitled
“Issues/Concerns to be brought to the Attention of AO or RLA that Prompt the Need for
an Agreement Modification” as a reminder to encourage staff to continuously review
USAID agreements and elevate issues to the appropriate management officials.
                                                                                        14
Accordingly, RIG/Cairo considers that final action has been taken to address this
recommendation.

In response to recommendation 5, USAID/Lebanon revised its Portfolio Review Activity
Sheet to include “Sustainability Plan and Progress Monitoring” as a section that staff will
be expected to address during portfolio reviews, effective November 2010. As a result
of the planned action, RIG/Cairo considers that final action has been taken to address
the recommendation.

To address recommendations 6 and 7, USAID/Lebanon issued Mission Order 11/10
Information Technology Procedures, effective November 22, 2010, to establish specific
mission protocols for its programs with information technology components. In
accordance with the mission order, USAID/Lebanon now requires its staff to document
programs with an information technology component valued at $100,000 or more to
identify system requirements, protocols, and procedures in the implementer work plans
and program activities. Moreover, the mission order requires staff to coordinate with the
agreement officer to develop and implement plans to require financial accounting of
information technology components during the development phase of any asset.
Consequently, RIG/Cairo considers that final action has been taken to address these
two recommendations.

In response to recommendation 8, USAID/Lebanon did not agree with the
recommendation to value the software programs developed by the implementer.
Although the implementer estimated the value of 12 of 22 software programs to be about
$2.9 million, neither the mission nor the implementer tracked direct costs associated with
its software program development. USAID/Lebanon stated that determining the value of
software development would not be useful to the Government of Lebanon since a
Lebanese decree regarding valuing assets stipulates that the Minister of Finance would
be required to issue regulations to value assets. Although mission official insisted that
the asset values would not be useful to the Government of Lebanon, the mission did not
provide relevant evidence to prove this point. In fact, USAID/Lebanon stated that the
Government of Lebanon records only the quantity of assets and does not record the
value of nonexpendable property such as software.

However, the Government of Lebanon issued a decree effective June 12, 1997, that
addressed accounting for fixed assets. According to Lebanon’s Council of Ministers’
Article 6 of Decree No. 8620/1996, Unliquidated Fixed Assets, 5 the basis for calculating
the cost of fixed assets is determined by (1) the assets’ book value, if recognized; or (2)
in the case of donated assets, the asset is valued against its estimated cost or its market
value. Moreover, the decree did not stipulate that the Minister of Finance would be
required to issue any regulations to value assets. Therefore, RIG/Cairo does not
consider that a management decision has been reached and requests that
USAID/Lebanon provide the Audit Performance and Compliance Division with an action
plan to address this recommendation.

In response to recommendation 9, on September 14, 2010, the mission’s implementer
provided a list of USAID-funded equipment with a program description and assigned

5
  According to Article 6 of Decree No. 8620/1996, fixed assets are defined as untradeable and
considered capital costs that are depreciated annually according to the depreciation rate that is
allocated by the Minister of Treasury. Fixed assets include machines, equipments, furniture,
supplies, etc.
                                                                                              15
values to the mission. On the basis of the mission’s response, RIG/Cairo considers that
final action has been taken to address this issue.

Regarding Recommendation 10, USAID/Lebanon incorporated a requirement for staff to
conduct end-use checks as a part of the mission’s portfolio implementation review
process. Moreover, mission staff plans to conduct an end-use check of equipment
purchased under the Assistance to Sustain Local Democratic Practices in Lebanon
Program. Consequently, RIG/Cairo considers that a management decision has been
reached on this recommendation.




                                                                                    16
                                                                                Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Cairo (RIG/Cairo) conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions on the basis of our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions on the basis of our audit objective. The purpose of this audit
was to determine whether USAID/Lebanon implemented the recommendations from
Audit Report No. 6-268-09-002-P, dated November 9, 2008, and whether the actions
taken were effective.

In planning and performing the audit, we assessed internal controls related to
documentation and data verification, supervisory and management review, proper
execution of transactions and events, and review of performance measures and
indicators. Specifically, we evaluated the mission’s program documentation, including
USAID/Lebanon’s 2008 and 2009 Federal Managers’ Financial Integrity Act of 1982
assessment, USAID/Lebanon’s 2008 and 2009 full performance plans and reports, the
2009 Lebanon data quality assessment, and oversight performed by the agreement
officer’s technical representative (AOTR).

The audit reviewed program activities from October 1, 2007, through September 30,
2009, to determine whether the mission implemented the three recommendations of the
prior performance audit report.6 However, to assess certain management control
functions, the audit reviewed historical information prior to the audit review period. As of
June 30, 2010, the mission had obligated $26.5 million and expended $23.9 million for
the program.

We conducted the audit fieldwork at USAID/Lebanon and at the State University of New
York (SUNY) Beirut office from August 2 to 12, 2010. We also conducted three site
visits (selected divisions within Beirut Municipality, Chiyah Municipality, and Metn
Administrative District Unit) to verify the validity of data provided to us as part of the
audit. In addition, we performed limited review of the AMIDEAST program AOTR files.

Methodology
To answer the audit objectives, we interviewed USAID/Lebanon’s mission staff to gain
an understanding of the program history and associated risks, implementation of
recommendations, and status of the program. We also interviewed the program
implementer (SUNY) and several officials at the Government of Lebanon municipalities.
Moreover, we reviewed applicable USAID policies and procedures, the cooperative
agreements and modifications, performance management plans, operational plans, site
visit reports, AOTR files, and supporting documentation such as training attendance
sheets and assessment reports.
6
 Audit of USAID/Lebanon’s Democracy and Governance Activities, Audit Report No. 6-268-09-
002-P (November 9, 2008).


                                                                                         17
                                                                             Appendix II



To verify the implementation of the recommendations, we reviewed the documentation
of the corrective actions that the mission took to address the recommendation and
validated the accuracy of corrective actions through interviews, observation, and by
comparing the mission’s program data with program data retained by the implementer.
For the program indicator activities reviewed as part of the corrective actions, we
judgmentally selected the program indicators and used statistical sampling to select a
sample of record. The statistical sampling was based on an assumption of a 5 percent
error and a variation of +/-4 percent and 95 percent confidence. The number of records
to select was provided by the Office of Inspector General statistician in Washington, and
the audit team randomly selected the sample.

The audit team also reviewed the management controls in place to monitor program
activities. We conducted the review through interviews with the mission staff and
implementer, observations, and review of reports and files that the mission provided as
part of its program monitoring activities.




                                                                                      18
                                                                              Appendix II



MANAGEMENT COMMENTS 



                                                                   November 22, 2010

MEMORANDUM

To:                Regional Inspector General/Cairo, Jacqueline Bell

From:              USAID/Lebanon Mission Director, Dr. Jim Barnhart/S/

Subject:           Follow-Up Audit of Selected USAID/Lebanon’s Democracy and
                   Governance Activities
                   (Report No. 6-268-11-00X-P)


Recommendation No. 1: We recommend USAID/Lebanon develop and implement a
plan to communicate results of recommendations from audits, assessments, and
reviews to its implementers in a timely manner.

Mission Response: On pages 5 to 7 of the Audit Report No. 6-268-11-00X-P, the audit
reviewed USAID/Lebanon’s corrective actions to improve management oversight over
program indicator definitions, data quality assessments and data verification, and found
that while the Mission took corrective action to conduct data quality assessments, it did
not discuss the recommendations with the implementing partner SUNY in time to be
reflected in data reported for the FY 2009 PPR. The Mission fully recognizes the need
to communicate recommendations in a timely manner to the implementing partners to
improve management oversight over program indicator definitions, data quality
assessments and data verification. On November 22, 2010, Mission Order 11/09
Communicating and Implementing Results of Assessments, Audits, and Reviews with
Implementing Partners and Host Government Entities (Attachment J) became effective
requiring Mission AOTRs and COTRs to communicate results of any audits,
assessments and reviews to the relevant implementing partner in order for the findings
to be addressed in accordance with the audit, assessment, or review recommendations.
The Mission will be increasing its staff within the next six months to continue to ensure
enhanced oversight of implementing mechanisms.

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 1 upon
report issuance.

Recommendation No. 2: We recommend that USAID/Lebanon develop and implement
procedures with the Agreement Officer’s Technical Representative at the beginning of
each program activity to establish methodologies and sampling techniques to conduct



                                                                                       19 

                                                                                 Appendix II


appropriate data verification of information provided by the implementing partners in
accordance with the terms and conditions of the program activity.

Mission Response: Mission Order 11/08 Oversight and Data Verification dated
November 22, 2010 (Attachment K), provided guidance on methods and sampling
techniques for Contracting or Agreement Officer’s Technical Representatives
(COTR/AOTRs) in fulfilling duties in the oversight and administration of program funded
contracts, grants and cooperative agreements. In addition, the Mission established
Performance and Monitoring Plans (PMPs) in December 2009 for each Assistance
Objective under the 2009-2013 Country Strategy and the recently awarded the
Monitoring and Evaluation (M&E) Task Order RAN-I-07-09-00019-00 to Social Impact
(copy attached – Attachment A) that will support USAID/Lebanon in portfolio monitoring,
including development of methodologies to observe performance, assess progress, and
verify data being collected and reported.

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 2 upon
report issuance.

Recommendation No. 3: We recommend that USAID/Lebanon create a centralized
program filing system that includes the first or original agreement, subsequent
agreements and modifications, and other identified agreement documents necessary for
management review.

Mission Response: The Mission fully concurs with this recommendation and has taken
actions to improve both hardcopy and electronic filing to resolve this audit. In May 2010,
the Mission Director issued two emails with filing guidance to establish requirements for
hardcopy and electronic filing and a checklist for the transfer of COTR/AOTR files to
transfer files to a new COTR/AOTR (Attachment B and C). Recently the Mission
reconfigured its electronic filing system to create separate folders with appropriate
access rights for technical offices, the Mission Director, and the Program Office and has
begun the process of systematically organizing files on the public drive, listed by project
name rather than by staff name and with appropriate Mission accessibility (Attachment
D). Checklists of TAG and SUNY/CLD project files were handed over to the current
AOTR (Attachment E) to ensure that all documents related to the agreements are
physically available in the current AOTRs offices.

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 3 upon
report issuance.

Recommendation No. 4: We recommend that USAID/Lebanon’s Agreement Officer
Technical Representatives, in conjunction with the Agreement Officer, develop and
implement a written plan to ensure agreements are modified to include relevant
provisions, such as the intellectual property rights clause, as appropriate over the life of
the award.

Mission Response: The Mission believes that the proper inclusion of activity specific
clauses in agreements or their incorporated by reference is the responsibility of the
Agreement/Contracting officer (AO/CO) and/or the Regional Legal Advisor. Highly
specialized provisions of an agreement such as intellectual property rights are outside


                                                                                           20
                                                                              Appendix II


the subject matter, knowledge and jurisdiction of the AOTR/COTR. Furthermore, ADS
318 holds the AO, RLA and AOTRs responsible for the inclusion of the IPR clause.
However, since the work plans and program activities change over the life of an award
and since the AO/CO is not intimately involved with the program, on November 12, 2010
the Mission revised its Portfolio Review Activity Sheet to include “Issues/Concerns to be
brought to the Attention of AO or RLA that Prompt the Need for an Agreement
Modification” effective 2011, as part of the Mission’s biannual portfolio implementation
review process, email and template copy attached (Attachment L).

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 4 upon
report issuance.

Recommendation No. 5: We recommend that USAID/Lebanon develop and implement
a plan to document the review of program activities and communicate potential
sustainability or vulnerability problems to the Agreement Officer expeditiously.

Mission Response: To ensure that sustainability issues are addressed regularly and
documented in the future, the Mission revised its Portfolio Implementation Review (PIR)
sheets (Attachment G) to require that technical staff address the sustainability of
program efforts. The Agreement Officer participates in the PIR, which are conducted
twice a year. In addition, the Mission will ensure that AOTRs/COTRs bring any pertinent
issues to the Agreement Officer’s attention, as required by existing AOTR/COTR
guidance. In the specific case of the SUNY/CLD agreement, sustainability of the
program was underscored in the Memoranda of Understanding with the Ministry of
Interior and Municipal Affairs (MOIM) and this issue was twice brought to the Agreement
Officer’s attention in 2008 and in 2009/2010. In February 2010, the AOTR actively
engaged the MOIM on fulfilling their commitment to sustain the program through the
provision of staff for training. When this was unlikely to materialize the Agreement
Officer sent a letter dated July 28, 2010, notifying SUNY that their agreement with
USAID would end on November 30, 2010 (Attachment F).

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 5 upon
report issuance.

Recommendation No. 6: We recommend that USAID/Lebanon document procedures
to develop, maintain, and communicate explicit system requirements, protocols, and
procedures to maintain information technology in an appropriate activity approval
document and in the subsequent solicitations and awards.

Mission Response: Mission Order 11/10 Information Technology Procedures, dated
November 22, 2010 (Attachment M), requires that for program-funded activities with an
IT component of $100,000 or more, requirements, protocols, and procedures to maintain
information technology within the host country institution or other program beneficiary
are to be documented and addressed in implementing partner work plans and program
activities.

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests that Recommendation No. 6 be closed upon
report issuance.


                                                                                       21
                                                                                 Appendix II



Recommendation No. 7: We recommend that USAID/Lebanon, in coordination with the
Agreement Officer, develop and implement a plan that requires capitalization of
programs with information technology components during the asset’s development
phase.

Mission Response: Mission Order 11/10 Information Technology Procedures, dated
November 22, 2010 (Attachment M), requires that for program-funded activities with an
IT component of $100,000 or more, COTR/AOTRs are to ensure that the Implementing
Partners properly track IT system asset values, including software programs that are
designed and built by Implementation Partners. In coordination with the Agreement
Officer, COTR/AOTRs are to develop and implement a plan that requires financial
accounting of information technology components during the asset’s development
phase.

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 7 upon
report issuance.

Recommendation No. 8: We recommend that USAID/Lebanon conduct an audit of
locally incurred cost for software programs developed under the Assistance to Sustain
Local Democratic Practices in Lebanon program to determine finite values for the
programs.

Mission Response: On page 12 of the Audit Report No. 6-268-11-00X-P, the audit
notes that the CFR requirement for asset valuation applies to nonexpendable property,
the auditors believe that it is a best practice for missions with software development
projects to provide a valuation so that in the transfer of the asset at the conclusion of the
activity, its asset value can be entered in the host government’s accounting records.
The Mission recognizes the logic of the suggestion as a prudent management practice.
In this case, the Ministry of Interior and Municipal Affairs does not follow this accounting
practice. The Government of Lebanon does not record the value of nonexpendable
property and software, but only records asset quantities. Chapter Five (Article 214 –
218) (Attachment N ) of Ministry of Finance General Accounting Law Number
14969/1963 constitutes the Government of Lebanon accounting policy for both
expendable and non-expendable property without distinction that stipulates “material”
accounting in public institutions should include records, necessary documents, and
transactions without specifically requiring recording the monetary value of the “material”.
A sample inventory list of Ministry of Interior and Municipal Affairs is attached
(Attachment O) that provides the “material” description and quantity with no assigned
monetary value. In June 1996, Decree number 8620/1996 was issued by the Council of
Ministers detailing procedures on how to implement Article 218 of General Accounting
Law Number 14969/1963 subject to further implementing regulations to be issued by the
Minister of Finance. In this decree the Council of Ministers detailed an accounting policy
that would require asset valuation to become effective once implementing regulations
are issued by the Minister of Finance that has not yet occurred. Article 4 of decree no.
8620/1996 stated that the Minister of Finance should categorize and assign serial
numbers for expendable and non-expandable materials to be adopted by public
administrations. To date the Minister of Finance did not issue this order. Moreover,
Article 16 states that the each “material” should have an individual record with a serial
number as specified in the Minister of Finance decision, showing the date, the


                                                                                          22
                                                                               Appendix II


transaction, quantity and value of the material. To date the Minister of Finance did not
issue this decision.

Under USAID program, Assistance to Sustain Local Democratic Practices in Lebanon,
SUNY/CLD developed a Municipal Inventory and Asset System to manage the business,
accounting and reporting processes in municipalities in accordance with the law
requirements. This inventory list could be updated easily once the Government of
Lebanon issues the decision related to the “material” serial numbering and classification.

As elaborated earlier, an audit of locally incurred costs for the software development
would not achieve the intended result as the host government would not record this
asset value in their financial accounts.

Based on the above, the Mission believes a management decision has been reached
and requests that Audit Recommendation No. 8 be closed upon report issuance.

Recommendation No. 9: We recommend that USAID/Lebanon develop a schedule for
the implementer to submit a complete list of USAID-funded equipment with a program
description and assigned values to the Mission.

Mission Response: On September 14, 2010, the implementer provided the Mission
with a list of USAID-funded equipment with a program description and assigned values
(Attachment H).

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 9 upon
report issuance.

Recommendation No. 10: We recommend that USAID/Lebanon develop and
implement a procedure to perform end-use checks as part of its routine site visits and
retain documentation of the equipment reviewed.

Mission Response: In accordance with the CTO Handbook, the AOTR/COTR
designation letter, ADS 324 and 22 CFR 226.34, it is the responsibility of all
AOTRs/COTRs to review inventory (including a physical inventory every 2 years),
conduct random spot checks, complete an end-use check on goods and approve the
disposition schedule (that contains values, location, condition and proposed recipient) of
such commodities at the end of the agreement. The Mission re-enforced this policy by
incorporating guidance on end-use checks into the PIR process disseminated to
technical officers by the Mission Director (Attachment G). Prior to the completion date of
SUNY CLD, currently planned for November 30, 2010, a complete listing of such
properties with values and confirmation of their existence and use will be done as part of
the standard close out process (see close out plan attached- Attachment I).

Based on the above, the Mission believes a management decision has been reached on
this audit recommendation and requests closure of audit Recommendation No. 10 upon
report issuance.

Attachments:
Attachment A:      Monitoring and Evaluation (M&E) Task Order RAN-I-07-09-00019-00
Attachment B:      Mission Director “Filing Guidance email” dated May 14, 2010


                                                                                           23
                                                                       Appendix II


Attachment C:   Mission Director “Checklist-Filing Handover” dated May 14, 2010
Attachment D:   Electronic and hard copy filing instructions to staff and ISC
Attachment E:   Checklist handing over TAG and SUNY/CLD files to current AOTR
Attachment F:   Agreement Officer letter to SUNY/CLD dated July 28, 2010
Attachment G:   PIR Template
Attachment H:   Program description and assigned values for SUNY equipment
Attachment I:   Close out plan for SUNY/CLD
Attachment J:   Mission Order 11/09 Communicating and Implementing Results of
                Assessments, Audits, and Reviews with Implementing Partners and
                Host Government Entities
Attachment K:   Mission Order 11/08 Oversight and Data Verification
Attachment L:   Portfolio Implementation Review Email and Template (Revised 2011)
                dated Nov. 12, 2010
Attachment M:   Mission Order 11/10 Information Technology Procedures
Attachment N:   Chapter Five (Article 214 – 218) of Ministry of Finance General
                Accounting Law Number 14969/1963
Attachment O:   Inventory list of MOIM




                                                                               24
                                                                           Appendix III



                  Summary of Agreement Modifications


Modification      Effective                                                                Funding
   No.              Date                   Description of Modification                   Increase ($)
Cooperative
Agreement         11/30/2004   Award to the State University of New York (SUNY)           17,665,655
              1    5/17/2005   Provide incremental funding of $4,000,000                       -
              2     4/2/2006   Provide incremental funding of $3,000,000                       -
              3    7/12/2006   Provide incremental funding of $4,000,000                       -
              4    8/31/2006   Provide incremental funding of $2,000,000                       -
                               Revise language under section 4.2, Project
              5     3/8/2007   Beneficiaries                                                  -
              6    5/10/2007   Provide incremental funding of $1,308,252                      -
                               (1) Extend the completion date of this Agreement from
                               11/29/2007 through to 11/30/2008,
                               (2) Add funding of $1,819,788,
                               (3) Realign the program budget, and
                               (4) Add the Provision entitled “Marking” under USAID-
              7    9/10/2007   Funded Assistance Instruments.                             1,819,788
                               (1) Extend the completion date of the agreement from
                               11/30/2008 through to 11/30/2011,
                               (2) Add funding of $9,262,543,
                               (3) Revise the budget,
                               (4) Increase the cost-sharing amount from $5,550,229
                               to $8,751,116, and
                               (5) Revise the program description to add the
           8 10/29/2008        additional activities.                                     9,262,543
           9 12/16/2009        (1) Add provision entitled “Participant Training”              -
          10  1/13/2010        Increase obligated amount by $600,000                          -
                             (1) Increase obligated amount by $2,771,852, and
          11       2/11/2010 (2) Add the Letter of Credit Number HHS-45A6P.                   -
                             Total Funding for Cooperative Agreement
                             #268-A-00-04-00232-00                                        28,747,986




                                                                                       25 

                                                                               Appendix IV



Software Systems Developed Under the Assistance to Sustain
      Local Democratic Practices in Lebanon Program



                                                                                                  Estimated
                                                                     Development Date
                                                                                                   Time to
System                                                                                             Develop
 Code                        Software System                          Start       End              System
MRS      Municipal Revenue System                                      Prior to 2005               18 months
         Municipal Budget System for Small Municipalities - Decree
MBSS     5598/82                                                       Prior to 2005                9 months
MBSL     Municipal Budget System for Large Municipalities              Prior to 2005               12 months
PPMS     Personnel and Payroll Management System                       Prior to 2005               18 months
MDTS     Municipal Document Tracking System                            Prior to 2005                6 months
IMDTS    Internet Municipal Document Tracking System                   Prior to 2005                3 months
MGIS     Municipal Geographic Information System                       Prior to 2005               12 months
GDTS     Government Document Tracking System                           Prior to 2005                9 months
MIFS     Municipal Information Form System                             Prior to 2005                 2 month
MMD      Municipal Member Database                                     Prior to 2005                4 months
MAS      Municipal Accounting System                                  Jun-05     May-06            12 months
MIAS     Municipal Inventory and Asset System                         Jun-06      Mar-07           10 months
IMRS     Internet Municipal Revenue System                            Jul-07     Nov-07             5 months
MGISTS   Municipal Geographic Information System for Touch Screen    Dec-07      Jan-08             2 months
         Health Benefit System - Medical Reimbursement (with
HBS      Internet access)                                            Mar-07      May-08            15 months
HBS      Health Benefit System - Hospital Billing                    Mar-09      Sep-09             7 months
PIC      Parcel Information Card                                     Sep-05      Feb-06             6 months
UFS      Union Financial System - General Accounting Law             Dec-05      Nov-06            12 months
UFSS     Union Financial System - Decree 5598/82                     Oct-06      Jan-07             4 months
ASF      Application Support Form                                    Sep-09      Dec-09             3 months
IMF      Independent Municipal Fund                                  Jan-10      Apr-10             4 months
MFPAS    Municipal Financial Post Audit System                        Oct 06      Dec 07           15 months




                                                                                           26 

                                                                                     Appendix V



                          Government of Lebanon Divisions 

                        Where Software Systems Were Installed 


                                                    Government of Lebanon Divisions

             Name of                                       Ministry of                                    Court
System       Software                        Municipal    Interior and                   Administrative     of
 Code         System        Municipalities    Unions     Municipalities   Governorates   District Units   Audits
         Municipal
         Revenue
MRS      System                  766
         Municipal
         Budget System
         for Small
         Municipalities -
         Decree
MBSS     5598/82                 731
         Municipal
         Budget System
         for Large
MBSL     Municipalities          34
         Personnel and
         Payroll
         Management
PPMS     System                  12
         Municipal
         Document
         Tracking
MDTS     System                  36
         Internet
         Municipal
         Document
         Tracking
IMDTS    System                   7
         Municipal
         Geographic
         Information
MGIS     System                  21
         Government
         Document
         Tracking
GDTS     System                                                1               5               4            4
         Municipal
         Information
MIFS     Form System                                           1
         Municipal
         Member
MMD      Database                                              1
         Municipal
         Accounting
MAS      System                  10




                                                                                               27 

                                                                                     Appendix V


                                                     Government of Lebanon Divisions

            Name of                                        Ministry of                                    Court
System      Software                         Municipal    Interior and                   Administrative     of
 Code        System         Municipalities    Unions     Municipalities   Governorates   District Units   Audits

         Municipal
         Inventory and
MIAS     Asset System             3
         Internet
         Municipal
         Revenue
IMRS     System                   9
         Municipal
         Geographic
         Information
         System for
MGISTS   Touch Screen             3
         Health Benefit
         System -
         Medical
         Reimbursement
         (with Internet
HBS      access)                  2
         Health Benefit
         System -
HBS      Hospital Billing         1
         Parcel
         Information
PIC      Card                     6
         Union Financial
         System -
         General
         Accounting
UFS      Law                                    6
         Union Financial
         System -
         Decree
UFSS     5598/82                                18
         Application
ASF      Support Form                                          1
         Independent
IMF      Municipal Fund                                        1
         Municipal
         Financial Post
MFPAS    Audit System                                                                                       1
         Total                  1641            24             5               5               4            5




                                                                                               28 

U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig

                                              29
